Review of the SEC’s Systems
Certification and Accreditation
Process




                                       March 27, 2013
                                       Report No. 515

             REDACTED PUBLIC VERSION
Review of the SEC’s Systems C&A Process             March 27, 2013
Report No. 515
                                          Page i

                          REDACTED PUBLIC VERSION
Should you have any questions regarding this report, please do not hesitate to
contact me. We appreciate the courtesy and cooperation that you and your staff
extended to our auditor and contractors during this audit.

Attachment

cc:    Elisse B. Walter, Chairman
       Erica Y. Williams, Deputy Chief of Staff, Office of the Chairman
       Luis A. Aguilar, Commissioner
       Troy A. Paredes, Commissioner
       Daniel Gallagher, Commissioner
       Jeff Heslop, Chief Operating Officer, Office of the Chief Operating Officer
       Pamela C. Dyson, Deputy Director/Deputy CIO, Office of Information
         Technology
       Todd K. Scharf, Associate Director, Chief Information Security Officer,
         Office of Information Technology




Review of the SEC’s Systems C&A Process                               March 27, 2013
Report No. 515
                                          Page ii

                          REDACTED PUBLIC VERSION
      Review of the SEC’s Systems Certification
             and Accreditation Process

                                Executive Summary
The U.S. Securities and Exchange Commission (SEC or Commission) Office of
Inspector General (OIG) contracted the services of Networking Institute of
Technology, Inc. (NIT) to assess the certification and accreditation (C&A) process
the Office of Information Technology (OIT) and information system owners use to
test their systems and determine compliance with governing SEC policies and
procedures, industry best practices, and applicable government laws, directives,
regulations, and publications such as the Office of Management and Budget
Circular A-130, Management of Federal Information Resources, November 28,
2000 (OMB A-130), 1 including Appendix III, Security of Federal Automated
Information Resources. OMB’s circulars provide guidance that can be used to
ensure information systems are protected throughout the lifecycle process. The
lifecycle process for an information system consists of phases covering planning,
analysis, design, implementation, and retirement.

OIT supports the SEC’s functions in all aspects of information technology (IT), to
include IT security and conducting C&As. The Chief Information Officer (CIO),
who is responsible for developing and maintaining an agency-wide information
security program, heads OIT. The Chief Information Security Officer (CISO)
carries out the CIO’s information security responsibilities under federal law. OIT
has developed C&A packages for the SEC’s information systems that provide
relevant information on the security state of systems. OIT conducts system-level
risk assessments for the SEC’s information systems and plans of action and
milestones are developed to mitigate identified risks. In addition, as part of its
continuous monitoring process, OIT conducts penetration testing and
vulnerability scanning on a regular basis.

The C&A process is required by the Federal Information Security Management
Act (FISMA). 2 The traditional C&A approach requires C&A’s be performed on all
information systems. A C&A stays in force for three years, unless significant
changes are made to the system or the operating environment. The C&A
process consists of “[a] comprehensive assessment of the management,
operational, and technical security controls in an information system, made in
support of security accreditation, to determine the extent to which the controls


1
    OMB Circular No. A-130 Revised, Management of Federal Information Resources (November 28, 2000).
2
    Title II, Pub. L, No. 107-347 (December 17, 2002), §3545.
Review of the SEC’s Systems C&A Process                                               March 27, 2013
Report No. 515
                                               Page iii

                                REDACTED PUBLIC VERSION
are implemented correctly, operating as intended, and producing the desired
outcome with respect to meeting the security requirements for the system.” 3

A security testing and evaluation (ST&E) is essential to the C&A process. A
ST&E is used to determine a system’s compliance with defined security
requirements where the correctness and effectiveness of the security controls
implementing the security requirements are tested. Organizations use the ST&E
to document security controls that are effective, ineffective, or have not been fully
implemented.

Objectives. NIT’s overall objective was to conduct a review of the SEC’s
systems C&A process and determine if there are areas that need strengthening.
Our specific review objectives included:

    •   Reviewing OIT’s C&A process to ensure it is based on the six-step
        Risk Management Framework criteria identified in National Institute
        of Standards and Technology (NIST) SP 800-37, Rev. 1.
    •   Conducting a system assessment and determining if the SEC has
        appropriately certified and accredited all its systems in accordance
        with industry best practices and guidelines.
    •   Determining whether the C&A process for critical applications is
        effective in identifying and mitigating risks in a timely manner.
    •   Conducting an assessment to determine the adequacy of OIT’s
        internal controls and compliance with internal information security
        policies and procedures and industry best practices, standards, and
        guidelines.

Results. OIT’s documentation to support evaluating some systems security
controls needs improvement. Specifically, OIT’s evaluation of security controls
for some SEC information systems needs to be better documented. We
determined some elements used to conduct the assessments were not clearly
identified. The review found that contractors did not provide enough evidence
within the ST&E to demonstrate they had examined documentation, conducted
interviews and tested the security controls for the ST&E evaluation.
Consequently, it was determined the ST&E needed support to demonstrate the
assessor’s method for examining, interviewing, and testing security controls. The
review further found a ST&E was not done for a contractor system and OIT does
not require ST&Es are conducted for contractor systems.

The review also found that OIT’s evaluation of some security controls should
have been better documented. Specifically, all elements used to conduct the
assessments should have been clearly identified. Without having sufficient
3
 NIST SP 800-18, Rev. 1, Guide for Developing Security Plans for Federal Information Systems (February
2006), pp. 31-32, Appendix B, Glossary.
Review of the SEC’s Systems C&A Process                                                March 27, 2013
Report No. 515
                                               Page iv

                               REDACTED PUBLIC VERSION
documentation in the ST&E, OIT cannot validate that security controls are
functioning as intended. We determined OIT should improve how it evaluated
the SEC system’s security controls.

Further, the review found the designated approving authority (DAA) did not
review and verify the terms and conditions set forth in the system authorization
on an annual basis, as described in the authorization to operate letter. Also, the
DAA reviewed and verified the terms and conditions of the SEC’s security
controls on a three-year cycle, rather than on a continuous basis. Because
security controls are not reviewed and a security status report is not developed at
least annually, SEC’s systems are operating at an elevated risk of exploitation
level to its information systems.

The review of personally identifiable information (PII) is not consistently
documented in some C&A packages. Moreover, PII related to some systems
was inconsistent with the C&A documentation that was reviewed. As a result, PII
is potentially not being properly protected.

Additionally, the SEC’s information system owners did not fully understand their
roles and responsibilities in the C&A process. As a result, they approved C&A
packages without having any technical knowledge. We also found that system
owners did not receive any formal role-based IT security training or guidance
based on their roles and responsibilities as system owner. As a result, they are
approving C&A packages without having technical knowledge. This could
potentially result in data not being properly protected.

Finally, the DAA has not taken role-based training and is responsible for
providing advice and assistance to senior management regarding SEC’s
systems; developing, maintaining, and facilitating the implementation of a sound
information security program; and promoting the effective and efficient design
and operation of all major information resources management processes.
Having role-based training would enhance the DAA’s understanding of federal IT
security standards.

Summary of Recommendations. This report contains seven recommendations
that were developed to strengthen the SEC’s systems certification and
accreditation process. Our most significant recommendations were that OIT
implement a centralized repository for managing C&A activities including the
security test and evaluation process, determine if the Commission has C&A files
stored on its contractor’s off-site servers, and require future contractors maintain
Commission files only on SEC servers.

We further recommended OIT develop and provide security status reports to the
designated approving authority annually as specified in the authorization to
operate memorandums, work with system owners and the SEC privacy office to
Review of the SEC’s Systems C&A Process                               March 27, 2013
Report No. 515
                                          Page v

                          REDACTED PUBLIC VERSION
review all Commission’s systems and conduct privacy analysis worksheets to
determine if they contain PII.

Finally, we recommended OIT develop a formal C&A briefing for information
systems and present it to the system owners for review; provide direction to staff
properly evaluating security controls; identify the portion of the hybrid controls
that are inherited by the general support system and the portion that is covered
by system-specific controls; and include a list of common controls that is
inherited from the general support system, in accordance with approved system
security plan templates.

Management’s Response to the Report’s Recommendations. OIG provided
SEC management with the formal draft report on March 14, 2013. SEC
management concurred with all recommendations in this report. OIG considers
the report recommendations resolved. However, the recommendations will
remain open until documentation is provided to OIG that supports each
recommendation has been fully implemented.

SEC management’s response to each recommendation and OIG’s analysis of
their responses are presented after each recommendation in the body of this
report.

The full version of this report includes information that the SEC considers to be
sensitive or proprietary. To create this public version of the report, OIG redacted
(blacked out) potentially sensitive, proprietary information from the report.




Review of the SEC’s Systems C&A Process                               March 27, 2013
Report No. 515
                                          Page vi

                          REDACTED PUBLIC VERSION
TABLE OF CONTENTS
Executive Summary ......................................................................................................iii

Table of Contents ........................................................................................................vii

Background and Objectives .................................................................................. 1
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 4

Findings and Recommendations .......................................................................... 5
     Finding 1: OIT’s Documentation to Support Evaluation Security Controls
     for SEC’s Information Systems Could be Improved ........................................... 5
                   Recommendation 1..................................................................... 16
                   Recommendation 2..................................................................... 16

         Finding 2: OIT Did Not Develop Security Status Reports for SEC’s
         Systems the DAA Could Review ...................................................................... 17
                      Recommendation 3..................................................................... 18

         Finding 3: PII is Inconsistently Documented in Some C&A Packages ............. 19
                       Recommendation 4..................................................................... 22

         Finding 4: SEC Information System Owners Did Not Fully Understand
         Their Roles and Responsibilities in the C&A Process ...................................... 23
                      Recommendation 5..................................................................... 25

         Finding 5: DAA Has Not Had Formal Role-Based IT Security Training ............ 25

         Finding 6: OIT Did Not Identify the Portion of Hybrid Controls GSS
         Inherited and the Portion Covered by System-Specific Controls ...................... 27
                       Recommendation 6..................................................................... 33
                       Recommendation 7..................................................................... 33

Appendices
    Appendix I: Abbreviations................................................................................ 34
    Appendix II: Definitions ................................................................................... 35
    Appendix III: Scope and Methodology ............................................................. 36
    Appendix IV: Criteria ........................................................................................ 39
    Appendix V: List of Recommendations ........................................................... 41
    Appendix VI: Management Comments............................................................ 43



Review of the SEC’s Systems C&A Process                                                           March 27, 2013
Report No. 515
                                                     Page vii

                                   REDACTED PUBLIC VERSION
Tables
     Table1: Evaluation of AC-2.1 for NIT’s Sample System Universe ..................... 7
     Table 2: CA-2.2. Detail for the Systems NIT Evaluated .................................. 10
     Table 3: Evidence and Artifacts for CA-7.1 for the Systems NIT Evaluated .... 13
     Table 4: NIT’s Privacy Analysis                                             ............................. 21
     Table 5: Identification of Hybrid and System-Specific Controls for CA-7.1
     for the Systems Evaluated ............................................................................... 30

Figures

        Figure 1: Risk Management Framework Process .............................................. 4




Review of the SEC’s Systems C&A Process                                                  March 27, 2013
Report No. 515
                                               Page viii

                               REDACTED PUBLIC VERSION
                      Background and Objectives


Background
The U.S. Securities and Exchange Commission (SEC or Commission) Office of
Inspector General (OIG) contracted the services of Networking Institute of
Technology, Inc. (NIT) to assess the certification and accreditation (C&A) process
the Office of Information Technology (OIT) and information system owners use to
test their systems and determine compliance with governing SEC policies and
procedures, industry best practices, and applicable government laws, directives,
regulations, and publications such as the Office of Management and Budget
Circular A-130, Management of Federal Information Resources, November 28,
2000 (OMB A-130), including Appendix III, Security of Federal Automated
Information Resources. 4

OMB A-130 establishes policy for managing federal information resources and it
includes procedural and analytic guidelines for implementing specific aspects of
these policies in its appendices. Specifically, Appendix III, establishes a
minimum set of controls to be included in federal automated information security
programs; assigns federal agency responsibilities for the security of automated
information; and links agency’s automated information security programs and
management control systems in accordance with OMB Circular A-123,
Management’s Responsibility for Internal Controls, December 21, 2004, which
further defines management's responsibility for internal control in federal
agencies. These circulars also provide guidance that can be used to ensure
information systems are protected throughout the lifecycle process. The lifecycle
process for an information system consists of phases covering planning,
analysis, design, implementation, and retirement.

The Office of Information Technology
OIT supports the SEC’s functions in all aspects of information technology (IT), to
include IT security and conducting C&As. OIT is comprised of four branches and
is led by the Chief Information Officer (CIO), who is responsible for developing
and maintaining an agency-wide information security program. The Chief
Information Security Officer (CISO) carries out the CIO’s information security
responsibilities under federal law. One of the CISO’s primary duties includes the
performance of information security. 5

4
    OMB Circular No. A-130 Revised, Management of Federal Information Resources (November 28, 2000).
5
    OIT Security Policy Framework Handbook, No. CIO-PD-08-06 (August 7, 2012), pp. 7-8, Responsibilities.
Review of the SEC’s Systems C&A Process                                                   March 27, 2013
Report No. 515
                                                  Page 1

                                 REDACTED PUBLIC VERSION
OIT has developed C&A packages for the SEC’s information systems that
provide relevant information on the security state of the systems. Further, OIT
conducts Federal Information Processing Standards (FIPS) 199 analysis to
determine the categorization of each system and the security control selection is
based on the system categorization level. In addition, system security plans
(SSP) have been developed for each system and the SSPs are approved by a
senior OIT official. Control implementation is documented in the SSP, to include
a functional description of the control implementation. A system level risk
assessment is conducted for each system and a plan of action and milestones
(POA&M) are developed to mitigate the risks. Finally, as part of its continuous
monitoring process, OIT conducts penetration testing and vulnerability scanning
on a regular basis.

ST&E and Certification and Accreditation
A security testing and evaluation (ST&E) is essential to the C&A process. A
ST&E is used to determine a system’s compliance with defined security
requirements where the correctness and effectiveness of the security controls
implementing the security requirements are tested. Organizations use the ST&E
to document security controls that are effective, ineffective, or have not been fully
implemented. Ineffective security controls and controls that have not been fully
implemented are documented in a risk assessment. The risk assessment
defines the residual risk 6 for a system prior to mitigation and after appropriate risk
mitigation has occurred.

OIT’s designated approving authority (DAA) determines the acceptable level of
risk based on the SEC’s requirements, while using the risk assessment and
certification package to issue an authorization to operate, or no accreditation of
the system. The DAA is an organizational official who acts on behalf of an
authorizing official to carry out and coordinate required activities associated with
security authorization. 7 OIT’s CIO is the SEC’s designated DAA. The DAA’s
primary responsibilities include reviewing the SEC’s security risks and making a
final decision whether to authorize operations, delay operation to allow mitigation
of risks prior to authorizing, or deny operation based on risk findings of the SEC’s
information systems.

The C&A process is required by the Federal Information Security Management
Act (FISMA). 8 The traditional C&A approach requires that C&As be performed
on all information systems. A C&A stays in force for three years, unless
significant changes are made to the system or the operating environment. The

6
  The remaining potential risk after all IT security measures are applied.
7
  NIST SP 800-37, Rev. 1, Guide for Applying the Risk Management Framework to Federal Information
Systems: A Security Life Cycle Approach, (February 2010), p. B-2, Glossary.
8
  Title II, Pub. L, No. 107-347 (December 17, 2002), §3545.
Review of the SEC’s Systems C&A Process                                              March 27, 2013
Report No. 515
                                              Page 2

                              REDACTED PUBLIC VERSION
traditional C&A approach has transformed into a more robust approach that is
related to managing security-related risks and is based on the six-step risk
management framework (RMF) criteria that is identified in the National Institute of
Standards and Technology (NIST) Special Publication (SP) 800-37, Revision 1,
Guide for Applying the Risk Management Framework to Federal Information
Systems: A Security Life Cycle Approach (NIST SP 800-37, Rev. 1). 9

The C&A process consists of “[a] comprehensive assessment of the
management, operational, and technical security controls in an information
system, made in support of security accreditation, to determine the extent to
which the controls are implemented correctly, operating as intended, and
producing the desired outcome with respect to meeting the security requirements
for the system.” 10 Based on the results of the assessment, a senior agency
official authorizes an information system to operate and explicitly accepts the risk
to agency operations. This process emphasizes: “(i) building information security
capabilities into federal information systems through the application of state-of-
the-practice management, operational, and technical security controls; (ii)
maintaining awareness of the security state of information systems on an
ongoing basis though enhanced monitoring processes; and (iii) providing
essential information to senior leaders to facilitate decisions regarding the
acceptance of risk to organizational operations and assets, individuals, other
organizations, and the Nation arising from the operation and use of information
systems.” 11

In accordance with SEC policy, OIT is responsible for overseeing the C&A team
and ensuring security controls have been properly assessed using the
assessment methods and procedures described in NIST publications and in
accordance with industry best practices, and to ensure an accreditation package
is prepared and maintained for each system. 12 We reviewed OIT’s C&A process
based on the RMF criteria identified in NIST SP 800-37, Rev. 1. Figure 1 below
illustrates the RMF process. 13




9
  NIST SP 800-37, Rev. 1, p. 1, Section 1.1.
10
   NIST SP 800-18, Rev. 1, Guide for Developing Security Plans for Federal Information Systems (February
2006), pp. 31-32, Appendix B, Glossary.
11
   NIST SP 800-37, Rev. 1, pp. 1-2, Section 1.1.
12
   Implementing Instruction, IT Security Certification and Accreditation, Policy No. 24-04-10-01 (June 29,
2005), pp. 6-8, Section 6, Roles and Responsibilities.
13
   NIST SP 800-37, Rev. 1, p. 8, Figure 2-2.
Review of the SEC’s Systems C&A Process                                                  March 27, 2013
Report No. 515
                                                Page 3

                                REDACTED PUBLIC VERSION
  Figure 1: Risk Management Framework Process


              Architecture Description            PROCESS         Organizational Inputs
               Archttecture Reference Mooels      OVERVIEW    Laws, Directives, Policy Guidance
            Segment and Solution Architectures                  Strategic Goals and Objectives
             Mission and Business Processes        Starting   Priorities and Resource Availability
              lnfonnation System Boundaries         Point        Supply Chain Considerations


                   Repeat as necessary

                          +
                                                    RISK
                                                 MANAGEMENT
                                                 FRAMEWORK




   Source: N IST SP 800-37, Rev. 1.


Objectives
Objectives. NIT's overall objective was to conduct a review of the SEC's
systems C&A process and determine if there are areas that need strengthening.
Our specific review objectives included:

   • 	 Reviewing OIT's C&A process to ensure it is based on the six-step
       RMF criteria identified in NIST SP 800-37, Rev. 1.
   • 	 Conducting a system assessment and determining if the SEC has
       appropriately certified and accredited all its systems in accordance
       with industry best practices and guidelines.
   • 	 Determining whether the C&A process for critical applications is 

       effective in identifying and mitigating risks in a timely manner. 

   • 	 Conducting an assessment to determine the adequacy of OIT's
       internal controls and compliance with internal information security
       policies and procedures and industry best practices, standards, and
       guidelines.


Review of the SEC's Systems C&A Process                                                      March 27, 2013
Report No. 515
                                                   Page 4

                                    REDACTED PUBLIC VERSION
                 Findings and Recommendations

Finding 1: OIT’s Documentation to Support
Evaluation Security Control for SEC’s Information
Systems Could be Improved
           OIT’s evaluation of some security controls for the SEC’s
           information systems should be better documented.
           Specifically, all elements that were used to conduct its
           security control assessments were not clearly identified.

NIST SP 800-53A, Rev. 1 provides guidance for assessing security controls
within an effective risk management framework. The results of the assessment
provide management with evidence about the effectiveness of the organization’s
security posture for its information systems. These controls consist of, but are
not limited to: access control, awareness and training, audit and accountability,
security assessment and authorization, configuration management, contingency
planning, identification and authentication, incident response, maintenance,
media protection, physical and environmental protection, planning, personnel
security, risk assessment, system and services acquisition, system and
communications protection, system and information integrity, and program
management. 14

We used the aforementioned controls to evaluate and assess OIT’s security
posture by testing a judgmental sample of 15 percent (11 of 59) of the SEC’s
information systems. Our testing consisted of reviewing the C&A packages for
11 information systems the SEC certified and accredited from January 1, 2010 to
March 31, 2012. The systems in our sample universe consisted of the




               We also assessed the systems to determine if they were
evaluated in accordance with industry best practices and guidelines. Further, we
reviewed the ST&E for each system to determine if OIT examined, interviewed
and tested security controls, provided detail for each security control evaluated,

14
     NIST SP 800-53A, Rev. 1, Appendix F.
Review of the SEC’s Systems C&A Process                                March 27, 2013
Report No. 515
                                            Page 5

                                REDACTED PUBLIC VERSION
and obtained evidence and artifacts to evaluate the security controls. The ST&E
security document consisted of assessment criteria and assessment results for
required security controls for information systems. We further conducted a
detailed ST&E review based on a judgmental sampling of 12 percent (24 of 200)
security controls from the ST&E documents.

Our review of the SEC’s 11 systems found a ST&E was not done for a contractor
system. We later learned OIT does not require ST&Es are conducted for
contractor systems. OIT examines the ST&Es that are conducted by the
contractor. Our review of the 10 remaining systems found that OIT’s evaluation
of some security controls should have been better documented and all elements
used to conduct the assessments should have been clearly identified.

NIST Examine, Interview, and Test Requirements
NIST SP 800-53A, Rev. 1 describes the assessment methods used to conduct a
security control evaluation as follows:

            Assessment methods define the nature of the assessor actions and
            include examine, interview, and test. The examine method is the
            process of reviewing, inspecting, observing, studying, or analyzing
            one or more assessment objects (i.e., specifications, mechanisms,
            or activities). The purpose of the examine method is to facilitate
            assessor understanding, achieve clarification, or obtain evidence.
            The interview method is the process of holding discussions with
            individuals or groups of individuals within an organization to once
            again, facilitate assessor understanding, achieve clarification, or
            obtain evidence. The test method is the process of exercising one
            or more assessment objects (i.e., activities or mechanisms) under
            specified conditions to compare actual with expected behavior. In
            all three assessment methods, the results are used in making
            specific determinations called for in the determination statements
            and thereby achieving the objectives for the assessment
            procedure. 15

OIT’s contractor provide the office with C&A support in general support systems
(GSS) and reportable systems, in accordance with NIST SP 800-53A, Rev. 1.
Our review of ST&E documents for the systems in our sample determined the
contractor, in assessing the SEC’s security posture, did not fully apply NIST SP
800-53A, Rev. 1. Our review of ST&E documents included reviewing OIT’s
assessment objectives for 24 security controls and their response to those
objectives. We found the contractor did not provide sufficient documentation

15
     Ibid, p. 9, Section 2.4.
Review of the SEC’s Systems C&A Process                                  March 27, 2013
Report No. 515
                                          Page 6

                                REDACTED PUBLIC VERSION
within the ST&E to demonstrate they had examined system documentation,
conducted interviews and tested the security controls for the ST&E evaluation.
We determined the ST&E lacked sufficient details and evidence to demonstrate
the assessor’s method for examining, interviewing, and testing security controls.

The contractor’s evaluation of security controls relied heavily on penetration
testing. However, the contractor did not provide support the assessments were
conducted in accordance with NIST SP 800-53A, Rev. 1. We determined that
although penetration testing is a good mechanism to use, it does not address all
the security controls that are identified in NIST SP 800-53A, Rev. 1 that are
needed when conducting a security control assessment. 16 Without having
sufficient documentation in the ST&E, OIT cannot validate that security controls
are functioning as intended. For example, for each security control the assessor
determined was satisfied from a prior assessment of the same information
system, the assessor can record the results in the control evaluation, which
indicates the control is satisfied. However, if the assessor does not
independently examine evidence, interview OIT stakeholders, or test the security
controls, the assessment of the system’s security controls is not thorough.

Table 1 illustrates our comparison between the security control outlined in NIST
SP 800-53A, Rev. 1, AC-2.1, Account Management and the 11 systems in our
sample universe. 17

Table 1: Evaluation of AC-2.1 for NIT’s Sample System Universe
     OIT Modified    OIT’s ST&E Response                    System        NIT’s Evaluation Result
Assessment Objective  for Control AC-2.1.                  Evaluated
  for Control AC-2.1
Does the organization       SEC policy prohibits use of                 No evidence of conducting
manage information          temporary or guest                          interviews, examining
system accounts,            accounts, and thus these                    documentation, or testing the
including establishing,     are not used for [name of                   security control.
activating, modifying,      system].
reviewing, disabling, and
removing accounts?




16
   Penetration testing covers risk assessment, system and communications protection, and system and
information integrity but does not address access control, awareness and training, audit and accountability,
security assessment and authorization, configuration management, contingency planning, identification and
authentication, incident response, maintenance, media protection, physical and environmental protection,
planning, personnel security, system and services acquisition, and program management. Ibid, Appendix F.
17
   Ibid, p. F-5.
18
   We reviewed 6 of the 11 information systems in our sample and found the same response for this control.
Review of the SEC’s Systems C&A Process                                                    March 27, 2013
Report No. 515
                                                 Page 7

                                REDACTED PUBLIC VERSION
     OIT Modified    OIT’s ST&E Response                     System      NIT’s Evaluation Result
Assessment Objective  for Control AC-2.1.                   Evaluated
  for Control AC-2.1
Examine organizational      See IA-4.1 and AC-2.1.                      No evidence of conducting
records to determine if     The need for                                interviews, examining
establishing, activating,   access and for particular                   documentation, or testing the
modifying, reviewing,       system roles are                            security control.
disabling, and removing     revalidated annually as part
accounts are being          of the budget preparation
performed in accordance     cycle.
with documented account     (Partially covered by
management procedures.      common controls provided
                                           19
                            by the GSS)
Does the organization       SEC policy prohibits use of                 No evidence of conducting
manage information          temporary or guest                          interviews, examining
system accounts,            accounts except for                         documentation, or testing the
including establishing,     security testing, and thus                  security control.
activating, modifying,      these are not normally
reviewing, disabling, and   used for           . Accounts
removing accounts?          established for test
                            purposes (such as the
                            security testing
                            accompanying this
                            certification) are
                            appropriately authorized.
N/A                                 is a contractor                     N/A
                            system, and ST&Es are not
                            required for contractor
                            systems.
Does the organization              External is                          No evidence of conducting
manage information          intentionally designed to                   interviews, examining
system accounts,            allow use without login.                    documentation, or testing the
including establishing,     SEC policy prohibits use of                 security control.
activating, modifying,      temporary or guest
reviewing, disabling, and   accounts, and thus these
removing accounts?          will not be used for
                            Internal.
Does the organization       SEC policy prohibits use of                 No evidence of conducting
manage information          temporary or guest                          interviews, examining
system accounts,            accounts, except as                         documentation, or testing the
including establishing,     specified in OIT Security                   security control.
activating, modifying,      policy during vulnerability
reviewing, disabling, and   scanning or testing of
removing accounts?          applications.
Source: NIT Generated

Our review found no evidence that the assessors examined or tested system
accounts even though AC-2.1, Account Management, requires examining and
testing according to Appendix F of NIST SP 800-53A, Rev. 1. 20 Overall, while we
did not find enough evidence to support the method the assessor used for their


19
   NIST SP 800-53, Rev. 3 states that organizations assign a hybrid status to a security control when one
part of the control is common and another part is system-specific. NIST SP 800-53, Rev. 3, Recommended
Security Controls for Federal Information Systems and Organizations (August 2009), p. 11.
20
   NIST SP 800-53A, Rev. 1, p. F-5.
Review of the SEC’s Systems C&A Process                                                   March 27, 2013
Report No. 515
                                                 Page 8

                                REDACTED PUBLIC VERSION
testing, of these occurrences, we found they properly documented their
responses in the ST&E documents for the 11 systems in our sample.

ST&E’s Security Control Assessments

Although OIT does not prepare security assessment reports, OIT informed us
that the results of their security control assessments, which are usually included
in a security assessment report, were documented in the ST&Es.
NIST SP 800-37, Rev 1 state:

         The assessment report includes information from the assessor
         necessary to determine the effectiveness of the security controls
         employed within or inherited by the information system based upon
         the assessor’s findings. …Security control assessment results are
         documented at a level of detail appropriate for the assessment… 21

OIT’s policy, IT Security Certification and Accreditation defines the sufficient level
of detail for the assessment as follows:

         Each SEC major application and general support system shall
         undergo appropriate technical evaluations to ensure that it meets
         all Federal and SEC policies, and that all installed security
         safeguards appear to be adequate and appropriate for the
         protection requirements of the system. Certification of the system
         shall be based on the documented results of the formal risk
         assessment and the Security Test and Evaluation (ST&E), which
         are based on a specified set of security requirements derived from
         Federal laws and SEC policies. Certification also may be based
         on additional forms of evidence, including penetration testing, audit
         reports, business continuity and disaster recovery plans,
         monitoring, log reviews, and self-assessments. 22

While OIT documents the results of security control assessment in their ST&Es,
we found the documented results did not provide enough information that could
be used to (1) assess the overall effectiveness of the controls for the 11 systems
in our sample; and (2) determine if the controls were implemented correctly,
operate as intended, and produce the desired outcome with respect to meeting
the security requirements for each information system. We made this
determination based on the lack of detail that was provided in the ST&Es. The
ST&E results did not have details such as interviews, report references, and
policies or procedures that were used to support conclusions. In addition, the
21
  NIST SP 800-37, Rev. 1, p. 32, Section 3.4, Task 4.3.
22
  OIT’s Implementing Instruction (II), IT Security Certification and Accreditation, Policy No. II 24-04.10.01
(02.0), (June 29, 2005) p. 3.
Review of the SEC’s Systems C&A Process                                                       March 27, 2013
Report No. 515
                                                   Page 9

                                 REDACTED PUBLIC VERSION
results did not include the sites that were accessed or assessment date, which is
required by NIST SP 800-53A, Rev. 1. NIST SP 800-53A, Rev. 1 requires
assessor’s document areas such as the assessment date, key elements for
assessment reporting, sites assessed, and the assessor’s identification. 23

Table 2 illustrates the comparison between the security control outlined in NIST
SP 800-53A, Rev. 1, CA-2.2, Security Assessments and the systems evaluated
in our sample. 24

Table 2: CA-2.2. Detail for the Systems NIT Evaluated
 OIT Modified Assessment     OIT’s ST&E Response for                 System     NIT’s Evaluation Result
Objective for Control CA 2.2      Control CA-2.2.                    Names
Control was not evaluated and an   No CA-2.2. Control was not                  Control was not evaluated and
explanation why it was not         evaluated and an explanation                an explanation why it was not
evaluated was not provided.        why it was not evaluated was                evaluated was not provided.
                                   not provided.
Does the organization produce a    See CA-2.2. This ST&E is                    Does not provide sufficient
security assessment report that    being published as part of the              level of detail or identify the
documents the results of the       first assessment of                         date of assessment
assessment?                        security controls. A Risk
                                   Assessment Summary report
                                   is being delivered concurrently
                                   with this ST&E Results Report
                                   and an updated POA&M.
Does the organization produce a    See CA-2.2. This ST&E is                    Does not provide sufficient
security assessment report that    being published as part of the              level of detail or identify the
documents the results of the       third assessment of                         date of assessment
assessment?                        security controls. A Revised
                                   Risk Assessment Summary
                                   report is being delivered
                                   concurrently with this ST&E
                                   Results Report and an
                                   updated POA&M.
Does the organization produce a    See CA-2.2. This ST&E is                    Does not provide sufficient
security assessment report that    being published as part of the              level of detail or identify the
documents the results of the       second assessment of                        date of assessment
assessment?                        security controls. A Revised
                                   Risk Assessment Summary
                                   report and an updated POA&M
                                   are being delivered
                                   concurrently with this ST&E
                                   Results Report.

N/A                                       is a contractor system,              N/A
                                   and ST&Es are not required
                                   for contractor systems.




23
   NIST SP 800-53A, Rev. 1, p. G-1, Appendix G.
24
   NIST SP 800-53A, Rev. 1, p. F-81.
25
   We reviewed 3 of the 11 information systems in our sample and found the same response for this control.
26
   We reviewed 4 of the 11 information systems in our sample and found the same response for this control.
Review of the SEC’s Systems C&A Process                                                    March 27, 2013
Report No. 515
                                               Page 10

                                REDACTED PUBLIC VERSION
 OIT Modified Assessment     OIT’s ST&E Response for                   System    NIT’s Evaluation Result
Objective for Control CA 2.2      Control CA-2.2.                      Names
Does the organization produce a      See CA-2.2. This ST&E is                   Does not provide sufficient
security assessment report that      being published as part of the             level of detail or identify the
documents the results of the         first assessment of                        date of assessment
assessment?                          security controls. A Risk
                                     Assessment Summary report
                                     is being delivered concurrently
                                     with this ST&E Results Report
                                     and an initial POA&M.
Does the organization produce a      See CA-2.2. This ST&E is                   Does not provide sufficient
security assessment report that      being published as part of the             level of detail or identify the
documents the results of the         reassessment of       security             date of assessment
assessment?                          controls. A Revised Risk
                                     Assessment Summary report
                                     and updated POA&M are
                                     being delivered concurrently
                                     with this ST&E Results Report.
Source: NIT Generated

The 11 systems in our sample had no evidence the assessor provided a
sufficient level of detail for the assessment. Accordingly, the ST&Es for the
systems did not list the date the security control was evaluated.

The security control assessor is “[t]he individual, group, or organization
responsible for conducting a security control assessment.” 27 We were told OIT
does not require the security control assessor to identify the evaluation date. OIT
uses a manual process to conduct these assessments. However, automated
C&A tools are available that could simplify this process by automatically
recording the assessor’s name, date of the assessment for each control, and
require assessors to provide detail. OIT’s manual ST&E process requires the
assessor to type-in its results in evaluating security controls and managing the
C&A process. OIT informed us they will implement an automated solution, which
will become effective by 2014.

Evidence and Artifacts
NIST SP 800-53A, Rev. 1 states that the assessors obtain evidence and artifacts
for the security control assessment:

           Assessors obtain the required evidence during the assessment
           process to allow the appropriate organizational officials to make
           objective determinations about the effectiveness of the security
           controls and the overall security state of the information system.

           Security control assessors/assessment teams begin preparing for
           the assessment by… [o[btaining artifacts needed for the security
27
     NIST SP 800-37, Rev. 1, p. B-9, Appendix B.
Review of the SEC’s Systems C&A Process                                                     March 27, 2013
Report No. 515
                                                   Page 11

                                 REDACTED PUBLIC VERSION
         control assessment (e.g., policies, procedures, plans,
         specifications, designs, records, administrator/operator manuals,
         information system documentation, interconnection agreements,
         previous assessment results)… 28

Our ST&E review found the evidence and artifacts the assessors provided to
support their ST&Es results did not have enough evidence that could be used to
make an objective determination regarding the effectiveness of the security
controls and the overall security state of the system. In addition, the evidence
and artifacts collected and used to support the security assessment results were
not mapped to a specific security control. For example, the documentation for
the                          systems (2 of the 11 systems in our sample
universe) were labeled by the assessor as evidence to support the ST&Es
included the SSP and system categorization, which were insufficient evidence or
artifacts. We also found the documentation did not map to specific security
controls or allow appropriate organization officials to make objective
determinations about the effectiveness of the security controls and the overall
security state of the information system. An SSP is a formal document that
provides an overview of the security requirements for an information system and
describes the security controls in place or planned for meeting those
requirements.

Table 3 shown below consists of a comparison between the security control
outlined in NIST SP 800-53A, Rev 1, CA-7.1, Continuous Monitoring and the
ST&Es. The responses found in the ST&Es do not reference any evidence or
artifacts. 29




28
   NIST SP 800-53A, Rev. 1, p. 8, section 2.3; p. 14, Section 3.1.
29
   Ibid, p. F-87. Continuous monitoring is the process of tracking the security state of an information system
on an ongoing basis and maintaining the security authorization for the system over time. Understanding the
security state of information systems is essential in highly dynamic environments of operation with changing
threats, vulnerabilities, technologies, and mission and business processes. Network vulnerability
assessments, ongoing security control assessments, and C&A are all components of continuous monitoring
programs.
Review of the SEC’s Systems C&A Process                                                     March 27, 2013
Report No. 515
                                                 Page 12

                                 REDACTED PUBLIC VERSION
Table 3: Evidence and Artifacts for CA-7.1 for the Systems NIT Evaluated
 OIT Modified Assessment            OIT’s ST&E Response             System      NIT’s Evaluation Result
 Objective for Control CA             for Control CA-7.1            Names
            7.1
Does the organization establish   The SEC has mature                           No evidence or artifacts
a continuous monitoring           continuous monitoring and                    provided
strategy and implement a          configuration management
continuous monitoring program     programs. SEC systems are
that includes a configuration     reaccredited when security-
management process for the        relevant changes are made.
information system and its        System changes are
constituent components?           approved through a
                                  documented process that
                                  includes security review.
                                  Continuous monitoring is
                                  performed on [name of
                                  system] components residing
                                  on GSS devices. [name of
                                  system] has also been stable
                                  after being limited to a read-
                                  only archive in November
                                  2009. (Partially covered by
                                                            30
                                  GSS common controls)




30
   NIST SP 800-53, Rev. 3 states organizations assign a hybrid status to a security control when one part of
the control is common and another part is system-specific. NIST SP 800-53, Rev. 3, p. 11.
31
   We reviewed 8 of the 11 information systems in our sample and found the same response for this control.
Review of the SEC’s Systems C&A Process                                                    March 27, 2013
Report No. 515
                                                Page 13

                                  REDACTED PUBLIC VERSION
 OIT Modified Assessment           OIT’s ST&E Response             System    NIT’s Evaluation Result
 Objective for Control CA            for Control CA-7.1            Names
            7.1
Does the organization establish                                             No evidence or artifacts
a continuous monitoring             •   The SEC has mature                  provided
strategy and implement a                continuous monitoring
continuous monitoring program           and configuration
that includes a configuration           management
management process for the              programs. SEC
information system and its              systems are
constituent components?                 reaccredited when
                                        security-relevant
                                        changes are made.
                                        System changes are
                                        approved through a
                                        documented process
                                        that includes security
                                        review. Continuous
                                        monitoring is
                                        performed on
                                        components residing
                                        on GSS devices. No
                                        significant changes
                                        have been made to the
                                                application code
                                        since it became
                                        operational, but minor
                                        changes have been
                                        tracked in the

                                        Configuration
                                        Management tool.
                                        Following this initial
                                        C&A,          will
                                        receive additional
                                        continuous monitoring
                                        attention (e.g., annual
                                        review of user
                                        accounts, the SSP,
                                        and the DRP, and
                                        quarterly review of
                                        open POA&M
                                        findings).
                                    •   (Partially covered by
                                        GSS common
                                                  32
                                        controls)
N/A                                      is a contractor system,            N/A
                                  and ST&Es are not required
                                  for contractor systems.




32
     Ibid.
Review of the SEC’s Systems C&A Process                                                March 27, 2013
Report No. 515
                                                Page 14

                                  REDACTED PUBLIC VERSION
 OIT Modified Assessment              OIT’s ST&E Response         System    NIT’s Evaluation Result
 Objective for Control CA               for Control CA-7.1        Names
            7.1
Does the organization establish                                            No evidence or artifacts
a continuous monitoring           •      The SEC has mature                provided
strategy and implement a                 continuous monitoring
continuous monitoring program            and configuration
that includes a configuration            management
management process for the               programs. SEC
information system and its               systems are
constituent components?                  reaccredited when
                                         security-relevant
                                         changes are made.
                                         System changes are
                                         approved through a
                                         documented process
                                         that includes security
                                         review. Continuous
                                         monitoring is
                                         performed on
                                         components residing
                                         on GSS devices. No
                                         significant changes
                                         have been made to the
                                                  application
                                         code since it became
                                         operational, but minor
                                         changes have been
                                         tracked in the

                                         Configuration
                                         Management tool.
                                                reviewed the
                                                  SCRs in
                                                      to verify
                                         CM was being used
                                         appropriately. Other
                                         forms of monitoring
                                         have also been
                                         conducted (e.g.,
                                         annual review of user
                                         accounts, the SSP,
                                         and the DRP, and
                                         quarterly review of
                                         open POA&M
                                         findings).
                                  (Partially covered by GSS
                                                     33
                                  common controls)
Source: NIT Generated

OIT informed us the information the assessor used to conduct and prepare the
ST&Es is generated and supplied by OIT. However, OIT’s staff did not have
direct access or control of the ST&E documentation the contractor collected.
Also, we were informed this documentation is stored on the contractor’s off-site


33
     Ibid.
Review of the SEC’s Systems C&A Process                                               March 27, 2013
Report No. 515
                                                Page 15

                                  REDACTED PUBLIC VERSION
server that is owned by the assessor, and OIT approved the assessor storing the
data at the off-site location.

Conclusion
We determined OIT needs to improve its evaluation of the SEC’s security
controls for its systems. Specifically, we determined OIT is not ensuring they
examine, interview and test security controls; provide a sufficient level of detail
for each security control evaluated; and obtain evidence and artifacts to ensure
the information systems meet federal guidance and SEC policy. Further, we
found that the ST&E responses in our sample universe did not reference any
evidence or artifacts. Therefore, we concluded if evidence and artifacts was
collected, stored on SEC servers, and referenced to the ST&E, the SEC would
then be able to ensure NIST SP 800-53A, Rev. 1 requirements were achieved
and the security controls were properly reviewed.

Finally, we determined to properly meet NIST’s requirements, assessors should
collect and document enough evidence within the ST&E, map the evidence to the
specific security controls, and keep the information in a centralized repository for
future reference only on an SEC server.

   Recommendation 1:

   The Office of Information Technology should implement a centralized
   repository for managing certification and accreditation activities including the
   security test and evaluation process (i.e., evidence, artifacts, assessor date,
   and sites assessed).
   Management Comments. OIT concurred with this recommendation. See
   Appendix VI for management’s full comments.

   OIG Analysis. We are pleased that OIT concurred with this
   recommendation. OIG considers this recommendation resolved. However,
   this recommendation will remain open until documentation is provided to OIG
   that supports it has been fully implemented.

   Recommendation 2:

   The Office of Information Technology should determine if the Commission
   has certification and accreditation files that are stored on its contractor’s off-
   site servers and, in the future, require contractor to maintain all Commission
   files on servers the Commission owns and manages.



Review of the SEC’s Systems C&A Process                                  March 27, 2013
Report No. 515
                                      Page 16

                          REDACTED PUBLIC VERSION
     Management Comments. OIT concurred with this recommendation. See
     Appendix VI for management’s full comments.

     OIG Analysis. We are pleased that OIT concurred with this
     recommendation. OIG considers this recommendation resolved. However,
     this recommendation will remain open until documentation is provided to OIG
     that supports it has been fully implemented.


Finding 2: OIT Did Not Develop Security Status
Reports for SEC’s Systems the DAA Could
Review
        OIT did not develop security status reports for the
        information systems in our sample.           As a result, we
        determined the SEC’s systems are operating at an elevated
        risk level for information system exploitation.

NIST SP 800-37, Rev. 1, requires the DAA to verify the terms and conditions of
the authorization on an ongoing basis, specifically, that “[t]he authorizing official
verifies on an ongoing basis, that the terms and conditions established as part of
the authorization are being followed by the information system owner or common
control provider.” 34

An authorization to operate (ATO) letter is the official management decision to
authorize the operation of an information system and to accept the risk to the
organizational operations including mission, functions, or reputation. 35 The DAA
issues an ATO after reviewing the results of the C&A package to determine risk
to the SEC. An ATO is required for each SEC information system. Consistent
with the NIST SP 800-37 requirements, the SEC’s ATOs for the 11 systems in
our sample state, specifically, that “[t]he security accreditation of the information
system will remain in effect as long as (i) the required security status report for
the system are submitted to this office every year….” 36

Security status reports describe or summarize key changes to security plans,
security assessment reports, and plans of action and milestones. 37 These
documents identify information security vulnerabilities and the plans to address
them.


34
   NIST SP 800-37, Rev. 1, p. 36, Chapter 3.
35
   Ibid, p. B-1, Glossary.
36
   This is the Office of the Chief Information Officer.
37
   NIST SP 800-37, Rev. 1, p. G-2, Appendix G, Footnote No. 86.
Review of the SEC’s Systems C&A Process                                 March 27, 2013
Report No. 515
                                              Page 17

                               REDACTED PUBLIC VERSION
OIT did not develop security status reports for the systems in our judgmental
sample and, therefore, did not comply with its ATO letter requirements. OIT’s
contractor evaluated its controls on a three-year cycle, rather than using a
continuous monitoring approach and assessing a subset of controls on an annual
basis, in accordance with NIST SP 800-37, Rev. 1. Continuous monitoring is the
process of tracking the security state of an information system on an ongoing
basis and maintaining the security authorization for the system over time.
Understanding the security state of information systems is essential in highly
dynamic environments of operation with changing threats, vulnerabilities,
technologies, and mission and business processes. Network vulnerability
assessments, ongoing security control assessments, and C&As are all
components of continuous monitoring programs. As a result, if security controls
are not assessed annually, OIT is unable to fully generate an updated annual
security status report that identifies vulnerabilities to the SEC’s systems.

OIT did not provide evidence that status reports are developed annually in the
past. Though we requested system security status reports and documentation
from OIT, we only received C&A documentation for the three-year certification
cycle.

Conclusion
We determined the DAA is not reviewing and verifying the terms and conditions
set forth in the system authorization on an annual basis as described in the ATO.
Consequently, all 11 systems in our sample are operating without the proper
authority. Our review found that the DAA is reviewing and verifying the terms
and conditions of the SEC’s security controls on a three-year cycle and not on a
continuous basis. We determined that because security controls were not
reviewed and a security status report is not developed at least annually, SEC’s
systems are operating at an elevated risk of exploitation level to its information
systems.

   Recommendation 3:

   The Office of Information Technology should develop and provide security
   status reports to the designated approving authority as specified in their
   authorization to operate memorandums.
   Management Comments. OIT concurred with this recommendation. See
   Appendix VI for management’s full comments.

   OIG Analysis. We are pleased that OIT concurred with this
   recommendation. OIG considers this recommendation resolved. However,
   this recommendation will remain open until documentation is provided to OIG
   that supports it has been fully implemented.
Review of the SEC’s Systems C&A Process                              March 27, 2013
Report No. 515
                                      Page 18

                          REDACTED PUBLIC VERSION
Finding 3: PII is Inconsistently Documented in
Some C&A Packages
        Personally Identifiable Information (PII) for 3 of the 11
        systems we reviewed was inconsistent with other C&A
        documentation obtained during our assessment. As a result,
        PII is potentially not being properly protected.

PII is information in an IT system or online collection system that directly
identifies an individual by name, address, social security number or other
identifying number or code, telephone number, email address, etc. In addition,
PII may be comprised of information an agency intends to identify specific
individuals in conjunction with other data elements such as indirect identification.
These data elements may also include identifying factors such as gender, race,
birth date, geographic indicator and other descriptors. 38
NIST SP 800-60, Volume 1, Revision 1, Guide for Mapping Types of Information
and Information Systems to Security Categories (NIST SP 800-60, Rev. 1),
addresses the FISMA direction to develop guidelines recommending that
agencies conduct privacy impact assessments to determine if their information
systems contain PII. The guidance further states:

        Agencies are required to conduct Privacy Impact Assessments
        (PIA) before developing IT systems that contain personally
        identifiable information or before collecting personally identifiable
        information electronically….Categorizations should be reviewed to
        ensure that the adverse effects of a loss of PII confidentiality have
        been adequately factored into impact determinations. The
        confidentiality impact level should generally fall into the moderate
        range. 39

The E-Government Act of 2002 establishes the requirement for agencies to
conduct PIA for information systems and states the following:

        …This law mandates that each agency shall: —conduct a privacy
        impact assessment; ensure the review of the privacy impact
        assessment by the Chief Information Officer, or equivalent official,
        as determined by the head of the agency; and if practicable, after
        completion of the review under clause (ii), make the privacy impact


38
   U.S. Securities and Exchange Commission, Office of Information Technology, Privacy Impact Assessment
Guide (Revised January 2007).
39
   NIST SP 800-60, Volume I, Rev. 1, Volume I: Guide for Mapping Types of Information and Information
Systems to Security Categories (August 2008), p. 30, Section 4.4.2.
Review of the SEC’s Systems C&A Process                                               March 27, 2013
Report No. 515
                                              Page 19

                               REDACTED PUBLIC VERSION
        assessment publicly available through the website of the agency,
        publication in the Federal Register, or other means. 40

To address PII requirements SEC’s C&A packages include privacy analysis
worksheets (PAW) and/or PIA. The PAW is completed to determine whether a
full PIA is required. A PIA is an analysis of how information is handled to ensure
handling conforms to applicable legal, regulatory, and policy requirements
regarding privacy. It is used to determine the risks and effects of collecting,
maintaining, and disseminating information in identifiable form in an electronic
information system and to examine and evaluate protections and alternative
processes for handling information to mitigate potential privacy risks.” 41

We reviewed copies of the PAWs and PIAs that the SEC’s Privacy Office used
for the systems in our sample universe and found the PAWs/PIAs
representations regarding PII for the                               systems were
inconsistent with other C&A documentation. Specifically, the system
categorization documentation received during the assessment was inconsistent
with the C&A documentation. “The [system categorization] process is carried out
by the information system owner and information owner/steward in cooperation
and collaboration with appropriate organizational officials (i.e., senior leaders with
mission/business function and/or risk management responsibilities). The security
categorization process is conducted as an organization-wide activity taking into
consideration the enterprise architecture and the information security
architecture….The results of the security categorization process influence the
selection of appropriate security controls for the information system and also,
where applicable, the minimum assurance requirements for that system.” 43

                The        system did not have a PAW disposition. Therefore,
the system may contain PII. Based on our review of the EMTS system’s C&A
documentation, we were unable to determine if the system contained PII. The
system owner informed us it did not contain PII. At the time of our review this
system was in use.

                 Based on our review of the PAW for the        system, we
determined the system did not contain PII. However, the system categorization
within the risk assessment and SSP identified the system as having PII. The
system owner informed us that the system did not contain PII, which is consistent
with its PAW disposition. At the time of our review this system was in use.



40
   Office of Management and Budget Memorandum M-03-22, OMB Guidance for Implementing the Privacy
Provisions of the E-Government Act of 2002, (September 2003), Attachment b, Section 208B.
41
   NIST SP 800-53, Rev. 3, p.B-9, Glossary.
42
   Represents 3 of the 11 systems in our sample.
43
   NIST SP 800-37, Rev. 1, p. 21, Section 3.1, Task 1-1.
Review of the SEC’s Systems C&A Process                                           March 27, 2013
Report No. 515
                                           Page 20

                             REDACTED PUBLIC VERSION
                   Our review of the          system included a PIA that identified
the system as containing PII. However, the system categorization, risk
assessment, and SSP did not identify the system as having PII. The system
owner also informed us the system contained PII, which is consistent with the
PIA’s disposition. At the time of our review this system was in use.

NIT requested documentation on January 9, 2013 confirming if the
             systems contained PII. However, we were not provided any
evidence. SEC’s Privacy Office and OIT were working to provide us with
documentation to resolve this matter. Table 4, shown below, outlines the
discrepancies between the PAW disposition/PIA disposition and the security
categorization for the                          systems.

Table 4: NIT’s Privacy Analysis of
   System          PAW            PIA          Privacy        Project# 515        Privacy Office /
    Name        Disposition   Disposition      Office’s         Analysis         OIT’s Responses
                                                Notes
              Pending         Pending       No            No determination      The Privacy Office
                                            determination from the privacy      previously worked with
                                            from the      office. The system is the DIO for the system
                                            privacy officein production without to obtain a completed
                                                          a disposition of the PAW and PIA. Our
                                                          PAW. This system team will contact the
                                                          may possibly contain system owner to
                                                          PII.                  complete the pending
                                                                                PAW and PIA for the
                                                                                system by February
                                                                                15, 2013.
              Completed, PIA Not            Approved      The PAW states        The Privacy Office will
              Not Required   Completed      11/21/07 (PIA there is no PII. The work with the system
                                            n/a)          system                owner to complete an
                                                          categorization in the updated PAW and PIA
                                                          2011 risk             to reflect the current
                                                          assessment and        status of the system by
                                                          2011 SSP (dated       February 15, 2013.
                                                          June 27, 2007)
                                                          states the existence
                                                          of PII in the system,
                                                          but there is no PIA.
              Not Completed   Completed     Approved      The PIA identifies    (This response is not
                                            6/10/08       PII. However, the     from the Privacy
                                                          system                Office, but from OIT):
                                                          categorization in the The documents have
                                                          2011 risk             been updated and
                                                          assessment and        we’re awaiting
                                                          2011 SSP (dated       signatures from all
                                                          November 30, 2007) concerned.
                                                          does not identify the
                                                          system as having
                                                          PII.
Source: NIT Generated




Review of the SEC’s Systems C&A Process                                              March 27, 2013
Report No. 515
                                            Page 21

                              REDACTED PUBLIC VERSION
   Table Response Options
   •   Completed, PIA Required – The PAW was completed and a PIA is required.
   •   Completed, PIA Not Required – The PAW was completed and a PIA is not required.
   •   Not Completed – The documentation was not completed.
   •   Pending – There is no determination from the Privacy Office.

Table 4 further shows the missing documents, which we attributed to the lack of
system owner involvement during the categorization process to provide direction
on identifying PII within systems. Additionally, based on our review of the PAWs
and PIAs for                     , we determined OIT did not effectively document
the PII classification in the C&A documentation. As a result, there is a potential
that PII is not being properly protected, which could result in improper release of
PII to unauthorized individuals.

Conclusion
Overall, we found the PAWs/PIAs representations regarding the inclusion of PII
for                           was inconsistent with the C&A documentation that
was provided for the assessments, in particular, the system categorization. Our
interviews with system owners found many were able to identify whether PII was
in their respective systems. Therefore, involving system owners in the
categorization process would provide OIT with better direction to identify PII
within the system and correctly document PII within C&A documents.

   Recommendation 4:

   The Office of Information Technology (OIT) should review the security
   documentation in the certification and accreditation packages, including
   system categorization documents, risk assessment documents, and system
   security plans to ensure that references to personally identifiable information,
   privacy impact assessments, and privacy analysis worksheets, are
   consistently providing the same disposition regarding Personally Identifiable
   Information.

   Management Comments. OIT concurred with this recommendation. See
   Appendix VI for management’s full comments.

   OIG Analysis. We are pleased that OIT concurred with this
   recommendation. OIG considers this recommendation resolved. However,
   this recommendation will remain open until documentation is provided to OIG
   that supports it has been fully implemented.




Review of the SEC’s Systems C&A Process                                            March 27, 2013
Report No. 515
                                           Page 22

                             REDACTED PUBLIC VERSION
Finding 4: SEC Information System Owners Did
Not Fully Understand Their Roles and
Responsibilities in the C&A Process
        SEC information system owners did not fully understand
        their roles and responsibilities in the C&A process. As a
        result, they approved C&A packages without having any
        technical knowledge.

System Owner Roles and Responsibilities

NIST SP 800-37, Rev. 1, defines the information system owner as a person
“responsible for addressing the operational interests of the user community (i.e.,
users who require access to the information system to satisfy mission, business,
or operational requirements) and for ensuring compliance with information
security requirements.”44 Further, NIST SP 800-37, Rev. 1 explains the RMF
responsibilities/tasks of the system owner.

        The Risk Management Framework and associated RMF tasks
        apply to both information system owners and common control
        providers. In addition to supporting the authorization of information
        systems, the RMF tasks support the selection, development,
        implementation, assessment, authorization, and ongoing monitoring
        of common controls inherited by organizational information
        systems. 45

Information system owners are also responsible for input into the certification and
accreditation process for a system, including providing input into the supporting
documentation package. A comprehensive C&A documentation package consists
of the following documents.46

        •    FIPS 199 analysis
        •    Security assessment plan (include a tailored control list)
        •    ST&E report
        •    Risk assessment
        •    SSP
        •    POA&M report
        •    Security assessment report
        •    ATO

44
   NIST 800-37, Rev. 1, page D-5, Appendix D, Section D.9.
45
   Ibid, p. 20.
46
   Title II, Pub. L, No. 107-347 (December 17, 2002).
Review of the SEC’s Systems C&A Process                                   March 27, 2013
Report No. 515
                                              Page 23

                               REDACTED PUBLIC VERSION
Information system owners are required to categorize information systems and
document the results, 47 help select the security controls, 48 and assist with
preparing POA&Ms and assembling the C&A package. 49 Our interviews with
information system owners found they do not fully understand their roles and
responsibilities in the C&A process, but sign-off on systems documentation that
is presented to them for C&A packages.

We interviewed nine system owners and they informed us that they understood
their roles as a system owner. 50 However, one system owner told us she was
given a C&A package, but did not understand what the documents represented
and signed the ATO as a formality. Overall, our evaluation found that 5 of 9
system owners are not familiar with system categorization; 6 of 9 system owners
did not know the number of POA&Ms for their system; 3 of 9 system owners
indicated they signed the ATO memo without fully understanding its significance;
and 4 of 9 system owners did not attend any formal briefing.

Training

NIST SP 800-16, Information Technology Security Training Requirements: A
Role and Performance Based Model (NIST SP 800-16), states that “prior to be
granted access to IT applications and systems, all individuals must receive
specialized training focusing on their IT security responsibilities and established
system rules. 51

We determined the system owners did not receive formal role-based IT security
training or guidance based on their roles and responsibilities . As a result, the
system owners are approving C&A packages without having technical
knowledge. This results in data potentially not being properly protected.

Conclusion
We determined that system owners do not have an adequate understanding of
their roles and responsibilities and have not been provided specialized training
focusing on their IT security responsibilities.




47
   NIST 800-37, Rev. 1, p. 21, Section 3.1, Task 1.1.
48
   Ibid, p. 25, Section 3.2, Task 2.2.
49
   Ibid, p. 34, Section 3.5, Tasks 5.1 and 5.2.
50
   We were unable to obtain interviews with the                      system owners. We interviewed both
the former and current          system owners.
51
   NIST SP 800-16. Information Technology Security Training Requirements: A Role and Performance
Based Model (April 1998), Chapter 1, p. 3. See also OMB Circular A-130, Management of Federal
Information Resources, Appendix III, Security of Federal Automated Information Resources.
Review of the SEC’s Systems C&A Process                                                March 27, 2013
Report No. 515
                                              Page 24

                               REDACTED PUBLIC VERSION
     Recommendation 5:

     The Office of Information Technology should provide a documented brief that
     management officials (system owners) can use as a resource reference.

     Management Comments. OIT concurred with this recommendation. See
     Appendix VI for management’s full comments.

     OIG Analysis. We are pleased that OIT concurred with this
     recommendation. OIG considers this recommendation resolved. However,
     this recommendation will remain open until documentation is provided to OIG
     that supports it has been fully implemented.


Finding 5: DAA Has Not Had Formal Role-Based
IT Security Training
        The DAA has not had formal role-based IT security-related
        training. Having role-based training would enhance the
        DAA’s understanding of federal IT security standards.

OIT’s CIO is designated as the DAA. The DAA’s primary responsibilities include
reviewing the SEC’s security risks and making a final decision whether to
authorize operations, delay operation to allow mitigation of risks prior to
authorizing, or deny operation based on findings of risk for the information
systems. The DAA has an integral role and responsibility for authorizing
systems, potentially including vulnerabilities, to operate in a production
environment.

NIST 800-50, Building an Information Technology and Security Awareness
Training Program, states that CIOs “are tasked by the FISMA to administer
training and oversee personnel with significant responsibilities for information
security.” 52

NIST SP 800-53, Rev. 3 requires “role-based security-related training based on
assigned roles and responsibilities in which “the organization determines the
appropriate content of security training based on assigned roles and
responsibilities and the specific requirements of the organization and the
information systems to which personnel have authorized access.”53


52
   NIST SP 800-50, Building an Information Technology Security Awareness and Training Program (October
2003), p. 3, Section 1.5.2.
53
   NIST SP 800-53, Rev. 3, p. F-22.
Review of the SEC’s Systems C&A Process                                              March 27, 2013
Report No. 515
                                             Page 25

                              REDACTED PUBLIC VERSION
Consistent with the NIST requirements, the SEC Implementing Instruction
24-04-03-01, IT Security Awareness Training states, “[R…[role-based]
training is required of employees holding certain IT positions, specifically
those that have access to or knowledge of SEC sensitive data or
materials.” 54

According to the SEC’s OIT Security Policy Framework Handbook, the roles and
responsibilities of the DAA for the Commission include:

     •   Providing advice and assistance to senior management to ensure
         IT is acquired and information resources are managed in a manner
         consistent with laws, Executive Orders, directives, policies,
         regulations, and priorities established by the head of the agency.
     •   Developing, maintaining, and facilitating the implementation of a
         sound information security program.
     •   Promoting the effective and efficient design and operation of all
         major information resources management processes. 55

The DAA, who has worked at the SEC since October 2010, informed us that
although he has knowledge of the SEC’s sensitive data, he has not attended any
formal, role-based IT security-related training. The DAA was unaware that such
training was a NIST requirement or OIT policy. The DAA relies on OIT security
staff to provide IT security and FISMA related expertise and guidance, including
when the DAA should authorize a system to operate.

The DAA authorized the operations of 10 of the 11 information systems in our
sample universe. 56 Thus, the DAA explicitly accepted the risk to the SEC’s
operations and organizational assets based on an agreed-upon set of security
controls. Having formal training in NIST and FISMA’s requirements, would
enhance the DAA’s understanding of risks to the SEC’s operations in areas such
as mission, functions, image, reputation, or assets.

Conclusion
The DAA has not taken role-based training and is responsible for providing
advice and assistance to senior management regarding SEC’s systems;
developing, maintaining, and facilitating the implementation of a sound
information security program; and promoting the effective and efficient design
and operation of all major information resources management processes.

54
   Implementing Instruction, IT Security Awareness Training, Policy No. 24-04-03-01 (Dec. 29, 2005), p. 4,
Section 5b(1).
55
   OIT Security Policy Framework Handbook, CIO-PD-08-06 (August 2012), p. 7.
56
   The DAA authorized the operation of
               systems.
Review of the SEC’s Systems C&A Process                                                    March 27, 2013
Report No. 515
                                                Page 26

                                REDACTED PUBLIC VERSION
The DAA should consider attending role-based information technology security
training to further enhance his understanding of the National Institute of
Standards and Technology and Federal Information Security Management Act
requirements.


Finding 6: OIT Did Not Identify the Portion of
Hybrid Controls GSS Inherited and the Portion
Covered by System-Specific Controls
        The ST&Es for the application specific SEC systems did not
        identify the portion of hybrid controls that were inherited by
        GSS, or the portion that is covered by the system-specific
        controls. 57 This could result in a portion of security controls
        not being properly evaluated and security vulnerabilities not
        being detected.

OIT did not identify the portion of the hybrid controls that were inherited by the
GSS and the portion covered by the system-specific controls in accordance with
NIST SP 800-37, Rev. 1, 58 which state there are “…three types of security
controls for information systems that can be employed by an organization: (i)
system-specific controls (i.e., controls that provide a security capability for a
particular information system only); (ii) common controls (i.e., controls that
provide a security capability for multiple information systems); or (iii) hybrid
controls (i.e., controls that have both system-specific and common
characteristics). 59 Further, the security controls are subsequently allocated to the
information systems as system-specific, hybrid, or common controls. 60

OIT documented security controls that were partially covered by GSS common
controls in the ST&Es in our sample information system universe, but did not
specify which portion of the hybrid controls is inherited by the GSS, or the portion
that is covered by the system-specific controls.

Hybrid Controls
Hybrid controls are controls having both system-specific and common
characteristics. 61 For example, contingency planning policy and procedures

57
   The GSS is “[a]n interconnected set of information resources under the same management control that
shares common functionality.” NIST SP 800-18, Rev. 1, p. 33, Glossary.
58
   Ibid.
59
   NIST SP 800-37, Rev. 1, p. 16, Section 2.4.
60
   Ibid, p. 7, Section 2.1.
61
   Ibid, p. 16, Section 2.4.
Review of the SEC’s Systems C&A Process                                                 March 27, 2013
Report No. 515
                                               Page 27

                               REDACTED PUBLIC VERSION
control may be implemented as a hybrid control. 62 The policy portion of the
control may be common (shared). However, the procedures may differ for each
system. Since the policy is common, but the procedures are specific to each
system, this control is considered hybrid.

System-Specific Controls
Unlike common controls which are evaluated once and the evaluation results can
be inherited by many systems, system-specific controls apply to each individual
system and must be individually evaluated for each system. A system-specific
control is “[a] security control for an information system that has not been
designated as a common security control.” 63 For example, the privacy impact
assessment control may require testing on a limited number of information
systems containing PII. 64 Since the application of this control does not apply to
all systems within the GSS it cannot be inherited and is considered a system-
specific control. Controls which are neither common nor hybrid are system-
specific and pertain to a specific system.

Common Controls
“Common controls are security controls inherited by one or more organizational
information systems.” 65 They typically originate from the GSS and are accepted
for use by major or minor applications. For example, the physical and
environmental protection (PE) control family is typically evaluated for the GSS. 66
Major and minor applications associated with the GSS will not reevaluate the PE
controls. Since the major or minor applications are hosted in the same
computing environment as the GSS, the major and minor applications can inherit
the PE security controls from the GSS. This reduces the need for repeat use of
identical controls and reduces the resources required for implementing and
evaluating security controls.

Identification of Hybrid and System-Specific Controls
NIST SP 800-53, Rev. 3 states that organizations assign a hybrid status to a
security control when one part of the control is common and another part is
system-specific. The guidance further states:

         Security controls not designated as common controls are
         considered system-specific controls or hybrid controls. System-

62
   NIST SP 800-53, Rev. 3, p. F-47.
63
   NIST SP 800-18, Rev. 1, p. 39, Glossary.
64
   NIST SP 800-53, Rev. 3, p. F-87.
65
   NIST SP 800-37, Rev. 1, p. 24, Section 3.2, Task 2.1.
66
   NIST SP 800-53, Rev. 3, pp. D-4-D-5.
Review of the SEC’s Systems C&A Process                               March 27, 2013
Report No. 515
                                                Page 28

                                REDACTED PUBLIC VERSION
           specific controls are the primary responsibility of information system
           owners and their respective authorizing officials. Organizations
           assign a hybrid status to a security control when one part of the
           control is deemed to be common and another part of the control is
           deemed to be system-specific. 67

We reviewed the ST&Es for each information system in our sample universe to
determine if OIT identifies the portion of the hybrid controls that are inherited by
the GSS and the portion that is covered by system-specific controls. Our
detailed ST&E review was based on a judgmental sample of approximately 12
percent (24 of 200) security controls from OIT’s ST&E documents. Overall, our
review found that application specific systems did not identify the hybrid controls
portion that were inherited by the GSS, or the portion that was covered by the
system-specific controls.

OIT’s ST&E documented response to “Does the organization establish a
continuous monitoring strategy and implement a continuous monitoring program
that includes a configuration management process for the information system
and its constituent components?” The ST&E stated, “Partially covered by
common controls provided by the GSS.” The response did not include the
assessor’s rationale for the hybrid controls. Further, we found OIT did not
evaluate security controls based on the full evaluation criteria identified in NIST
SP 800-53A, Rev 1.

We determined OIT’s security staff has a general understanding of basic NIST
concepts such as the identification of common and hybrid controls, but lacks the
understanding needed to identify the portion of the hybrid controls that are
inherited by the GSS, or the portion that is covered by system-specific controls.
This occurred because OIT has not fully applied NIST guidance to identify the
portion of the hybrid controls inherited by the GSS and the portion covered by the
system-specific controls. We also found that OIT did not evaluate security
controls based on the full evaluation criteria that is identified in NIST SP 800-
53A, Rev 1.

Table 5 below, demonstrates the comparison between the security control
outlined in NIST SP 800-53A, Rev 1, CA-7.1, Continuous Monitoring and the
ST&Es in our sample universe. 68




67
     Ibid, p. 11.
68
     NIST SP 800-53A, Rev. 1, p. F-87.
Review of the SEC’s Systems C&A Process                                   March 27, 2013
Report No. 515
                                         Page 29

                                 REDACTED PUBLIC VERSION
Table 5: Identification of Hybrid and System-Specific Controls for CA-7.1
for the Systems Evaluated
 OIT Modified Assessment            OIT’s ST&E Response             System      NIT’s Evaluation Result
 Objective for Control CA             for Control CA-7.1            Names
            7.1
Does the organization establish   The SEC has mature                           Does not identify the portion
a continuous monitoring           continuous monitoring and                    of the hybrid controls
strategy and implement a          configuration management                     inherited by the GSS and the
continuous monitoring program     programs. SEC systems are                    portion covered by the
that includes a configuration     reaccredited when security-                  system-specific controls
management process for the        relevant changes are made.
information system and its        System changes are
constituent components?           approved through a
                                  documented process that
                                  includes security review.
                                  Continuous monitoring is
                                  performed on [name of
                                  system] components residing
                                  on GSS devices.[name of
                                                                       0
                                  system] has also been stable
                                  after being limited to a read-
                                  only archive in November
                                  2009
                                  (Partially covered by GSS
                                                        69
                                  common controls)




69
   NIST SP 800-53, Rev. 3 states organizations assign a hybrid status to a security control when one part of
the control is common and another part is system-specific. NIST SP 800-53, Rev. 3, p. 11.
70
   Our review of 8 of the 11 systems in our sample found the same response for this control.
Review of the SEC’s Systems C&A Process                                                    March 27, 2013
Report No. 515
                                                Page 30

                                  REDACTED PUBLIC VERSION
 OIT Modified Assessment           OIT’s ST&E Response             System      NIT’s Evaluation Result
 Objective for Control CA            for Control CA-7.1            Names
            7.1
Does the organization establish   The SEC has mature                          Does not identify the portion
a continuous monitoring           continuous monitoring and                   of the hybrid controls
strategy and implement a          configuration management                    inherited by the GSS and the
continuous monitoring program     programs. SEC systems are                   portion covered by the
that includes a configuration     reaccredited when security-                 system-specific controls
management process for the        relevant changes are made.
information system and its        System changes are
constituent components?           approved through a
                                  documented process that
                                  includes security review.
                                  Continuous monitoring is
                                  performed on
                                  components residing on GSS
                                  devices. No significant
                                  changes have been made to
                                  the        application code
                                  since it became operational,
                                  but minor changes have been
                                  tracked in the
                                  Configuration Management
                                  tool. Following this initial
                                  C&A,         will receive
                                  additional continuous
                                  monitoring attention (e.g.,
                                  annual review of user
                                  accounts, the SSP, and the
                                  DRP, and quarterly review of
                                  open POA&M findings).
                                  (Partially covered by GSS
                                                       71
                                  common controls)
N/A                                      is a contractor system,              N/A
                                  and ST&Es are not required
                                  for contractor systems.




71
  NIST SP 800-53, Rev. 3 states organizations assign a hybrid status to a security control when one part of
the control is common and another part is system-specific. NIST SP 800-53, Rev. 3, p. 11.
Review of the SEC’s Systems C&A Process                                                   March 27, 2013
Report No. 515
                                                Page 31

                                  REDACTED PUBLIC VERSION
 OIT Modified Assessment           OIT’s ST&E Response             System      NIT’s Evaluation Result
 Objective for Control CA            for Control CA-7.1            Names
            7.1
Does the organization establish   The SEC has mature                          Does not identify the portion
a continuous monitoring           continuous monitoring and                   of the hybrid controls
strategy and implement a          configuration management                    inherited by the GSS and the
continuous monitoring program     programs. SEC systems are                   portion covered by the
that includes a configuration     reaccredited when security-                 system-specific controls
management process for the        relevant changes are made.
information system and its        System changes are
constituent components?           approved through a
                                  documented process that
                                  includes security review.
                                  Continuous monitoring is
                                  performed on
                                  components residing on GSS
                                  devices. No significant
                                  changes have been made to
                                  the          application code
                                  since it became operational,
                                  but minor changes have been
                                  tracked in the
                                  Configuration Management
                                  tool.       reviewed the
                                            SCRs in
                                  to verify CM was being used
                                  appropriately. Other forms of
                                  monitoring have also been
                                  conducted (e.g., annual
                                  review of user accounts, the
                                  SSP, and the DRP, and
                                  quarterly review of open
                                  POA&M findings).
                                  (Partially covered by GSS
                                                       72
                                  common controls)
Source: NIT Generated

As demonstrated in Table 5, the responses found in the ST&E for the sample
universe do not specifically identify the portion of the hybrid controls inherited by
the GSS, or the portion that was covered by the system-specific controls. Not
knowing which controls are inherited and which ones are system-specific could
result in a portion of the security controls not being properly evaluated and
security vulnerabilities going undetected.



Our review of the C&A package for the                 found the package did not
include a list of common controls derived from the GSS within the SSP. When
creating the SSP for                application, OIT inadvertently did not include
a list of common controls that were derived from the GSS within the SSP. OIT’s

72
  NIST SP 800-53, Rev. 3 states organizations assign a hybrid status to a security control when one part of
the control is common and another part is system-specific. NIST SP 800-53, Rev. 3, p. 11.
Review of the SEC’s Systems C&A Process                                                   March 27, 2013
Report No. 515
                                                Page 32

                                  REDACTED PUBLIC VERSION
SSP template contains a table for listing common controls inherited from the
GSS. As a result, the security controls for the       system may not have been
allocated properly, which could result in security controls not being properly
evaluated.

Conclusion
NIT determined OIT did not identify the portion of the hybrid controls that were
inherited by GSS, or the portion that was covered by the system-specific controls
for the information systems in our sample universe. We further determined that
OIT is not evaluating the security controls based on the full evaluation criteria
that is identified in NIST SP 800-53A, Rev. 1. Lastly, we found the C&A package
for the                does not include a list of common controls. As a result, a
portion of the security controls may not be properly evaluated and security
vulnerabilities may go undetected.

   Recommendation 6:

   The Office of Information Technology should identify the portion of the hybrid
   controls that are inherited from the general support system and the portion
   that should be evaluated as a system-specific control.
   Management Comments. OIT concurred with this recommendation. See
   Appendix VI for management’s full comments.

   OIG Analysis. We are pleased that OIT concurred with this
   recommendation. OIG considers this recommendation resolved. However,
   this recommendation will remain open until documentation is provided to OIG
   that supports it has been fully implemented.

   Recommendation 7:

   The Office of Information Technology should review and update the
                                  security plan and include a list of common
   controls that was inherited from the general support system in accordance
   with the approved system security plan template.

   Management Comments. OIT concurred with this recommendation. See
   Appendix VI for management’s full comments.

   OIG Analysis. We are pleased that OIT concurred with this recommendation.
   OIG considers this recommendation resolved. However, this
   recommendation will remain open until documentation is provided to OIG that
   supports it has been fully implemented.

Review of the SEC’s Systems C&A Process                              March 27, 2013
Report No. 515
                                      Page 33

                          REDACTED PUBLIC VERSION
                                                                        Appendix I


                               Abbreviations


           ATO                Authorization to Operate



           C&A                Certification and Accreditation
           CIO                Chief Information Officer
           CISO               Chief Information Security Officer
           CSC                Continuity Support Center
           DAA                Designated Approving Authority


           FIPS               Federal Information Processing Standard
           FISMA              Federal Information Security Management
                              Act
           GSS                General Support System
           IT                 Information Technology


           NIST               National Institute of Standards and
                              Technology
           NIT                Networking Institute of Technology, Inc.
           OCA                Office of the Chief Accountant
           OIG                Office of Inspector General
           OIT                Office of Information Technology
           OMB                Office of Management and Budget
           PAW                Privacy Analysis Worksheet
           PIA                Privacy Impact Analysis
           PII                Personally Identifiable Information
           POA&M              Plan of Actions and Milestones
           RMF                Risk Management Framework
           SEC or             U.S. Securities and Exchange Commission
           Commission


           SSP                System Security Plan
           ST&E               Security Test and Evaluation




Review of the SEC’s Systems C&A Process                             March 27, 2013
Report No. 515
                                      Page 34

                          REDACTED PUBLIC VERSION
                                                                        Appendix II


                                  Definitions

FIPS 199 Analysis - The characterization of information or an information
system based on an assessment of the potential impact that a loss of
confidentiality, integrity, or availability of such information or information system
would have on organizational operations, organizational assets, individuals, other
organizations, and the Nation.

Security Assessment Plan - Provides the objectives for the security control
assessment, a detailed roadmap of how to conduct such an assessment, and
assessment procedures.

ST&E Report - The security document that contains the assessment criteria and
the assessment results for the required security controls for each system.

Risk Assessment - The process of identifying risks to organizational operations
(including mission, functions, image, or reputation), organizational assets,
individuals, other organizations, and the Nation, resulting from the operation of
an information system.

SSP Formal Document - A document that provides an overview of the security
requirements for an information system and describes the security controls in
place or planned for meeting those requirements.

POA&M Report - A document that identifies tasks needing to be accomplished.
It details resources required to accomplish the elements of the plan, any
milestones in meeting the tasks, and scheduled completion dates for the
milestones.

Security Assessment Report - The results of the security control assessment,
including recommendations for correcting any weaknesses or deficiencies in the
controls.

Authorization to Operate - The official management decision given by a senior
organizational official to authorize operation of an information system and to
explicitly accept the risk to organizational operations (including mission,
functions, image, or reputation), organizational assets, individuals, other
organizations, and the Nation based on the implementation of an agreed-upon
set of security controls.




Review of the SEC’s Systems C&A Process                                March 27, 2013
Report No. 515
                                      Page 35

                          REDACTED PUBLIC VERSION
                                                                                         Appendix III


                             Scope and Methodology

The full version of this report includes information that the SEC considers to be
sensitive or proprietary. To create this public version of the report, OIG redacted
(blacked out) potentially sensitive, proprietary information from the report.

NIT conducted its review in accordance with SEC/OIG Office of Audit’s Audit
Manual and Standard Operating Procedures. 73

Scope. NIT conducted this review from June 2012 to December 2012. The
scope of the review consisted of examining the OIT’s C&A process to ensure it is
based on the RMF criteria identified in NIST SP 800-37, Rev. 1. The six steps
are listed below:

       •   Step 1–Categorize Information System: We examined the system
           documentation to determine if the OIT is categorizing the information
           system in accordance with FIPS 199, describing the information system
           (including system boundary), and registering the information system with
           appropriate organizational program/management offices.

       •   Step 2–Select Security Controls: We evaluated the security controls to
           establish whether an initial set of baseline security controls for the
           information system includes tailoring based on the security categorization,
           organizational assessment of risk, and local conditions.

       •   Step 3–Implement Security Controls: We evaluated the SSP and ST&E
           reports to identify whether the security controls are implemented and
           identified in the tailored control list.

       •   Step 4–Assess Security Controls - We assessed the SEC processes for
           evaluating security controls to determine if the SEC is using appropriate
           assessment procedures to determine the extent to which the controls are
           implemented correctly, operating as intended, and producing the desired
           outcome with respect to meeting the security requirements for the system.

       •   Step 5–Authorize Information System: We reviewed the C&A package for
           each system to determine if the SEC C&A process were in accordance
           with NIST SP 800-37, Rev. 1 guidance.




73
     SEC/OIG Office of Audit’s Audit Manual and Standard Operating Procedures, (May 2012).
Review of the SEC’s Systems C&A Process                                                 March 27, 2013
Report No. 515
                                                Page 36

                                 REDACTED PUBLIC VERSION
                                                                       Appendix III

   •   Step 6–Monitor Security Controls: NIT reviewed the continuous monitoring
       program to establish whether or not there is an effective monitoring
       strategy for the systems. The continuous monitoring strategy for the
       information systems identifies the security controls monitored, the
       frequency of monitoring, and the control assessment approach.

We assessed the C&A process OIT and other information system owners use to
test its systems and to determine compliance with governing SEC policies and
procedures, industry best practices, and applicable government laws, directives,
regulations, and publications such as the OMB A-130 in accordance with OMB A-
123. We completed the review of the SEC’s systems C&A process, performed
the necessary evaluation procedures, and compiled this report for the SEC OIG.

Methodology. To meet the objective of reviewing OIT’s C&A process to ensure
it is based on the six-step RMF criteria identified in NIST SP 800-37, Rev. 1, and
to determine if the SEC has appropriately certified and accredited its systems in
accordance with appropriate guidelines, we interviewed key OIT personnel and
examined policies, procedures, and other related documentation. The key
personnel included system owners, OIT representatives, and OIG stakeholders.
We conducted follow-up interviews to gather additional evidence, and reviewed
relevant documentation (such as policies, procedures, and roles and
responsibilities) to address the evaluation objective. We reviewed policies and
procedures to include RFMs, and had discussions with SEC officials to discuss
and confirm our analysis.

To meet the objective of determining if the C&A process for critical applications is
effective in identifying and mitigating risks in a timely manner and assessing the
adequacy of OIT’s internal controls and compliance with internal information
security policies and procedures and industry best practices, standards, and
guidelines, we conducted a detailed ST&E review based on a judgmental
sampling of approximately 12 percent (24 of 200) security controls from the OIT’s
ST&E documents for the 11 information systems in a sample universe. Also, we
reviewed other documentation relating to the scope of the C&A review. Our
analysis is based on information provided from various sources, interviews with
key SEC OIT personnel, prior audit coverage, support documentation, and
artifacts provided to our staff.

Management Controls. Consistent with the objectives of this review, we did not
assess OIT’s management control structure. We reviewed existing controls at
the Commission considered specific to the C&A review. To thoroughly
understand OIT’s management controls pertaining to its policies and procedures
and methods of operation, we relied on information requested from and supplied
by OIT staff members and information from interviews held with various OIT
personnel. In accordance with OMB A-123, we evaluated management’s

Review of the SEC’s Systems C&A Process                               March 27, 2013
Report No. 515
                                      Page 37

                          REDACTED PUBLIC VERSION
                                                                                        Appendix III


responsibility for establishing and maintaining internal control to achieve the
objectives of effective and efficient operations and compliance with applicable
laws and regulations.

Use of Computer-Processed Data. We did not assess the reliability of OIT’s
computers because it did not pertain to our objectives for this review. Further,
NIT did not perform any tests on the general or application controls over OIT’s
automated systems because such tests were not within the scope of our work.
The information retrieved from these systems as well as the requested
documentation provided to us, was sufficient, reliable, and adequate to use in
meeting our stated objectives.

Judgmental Sampling. We conducted a limited-scope review of the
Commission’s C&A process. We performed a review on the SEC’s computer
systems that were certified and accredited from January 1, 2010 to March 31,
2012. Our evaluation consisted of reviewing C&A packages for a judgmental
sample of 15 percent (11 of 59) of the SEC’s computer systems. The systems
selected for testing in our sample universe consisted of the
                                                                         We
based the judgmental sample on a limited scope review of both internal and
external systems found in the SEC’s inventory compliance workbook. The ST&E
review consisted of controls that were reviewed within the scope and were based
on a random selection of critical controls from the SEC’s ST&E reports. 74 We
also interviewed nine of these system owners.




74
  The ST&E controls selected for our review were as follows: AC-2.6, AC-3.1, AC-6.1, AU-2.1, AU-5.1, AU-
5.2, AU-6.1, CA-2.1, CA-2.3, CA-7.1, CM-2.1, CM-2e1.1, CM-2e.3.1, CM-6.1, CP-2.1, IA-2.1, IA-7.1, PL-2.1,
PL-5.1, RA-2.1, RA-5.1, SA-8.1, SC-4.1, SC-8.1, and SI-7.1.
Review of the SEC’s Systems C&A Process                                                 March 27, 2013
Report No. 515
                                               Page 38

                               REDACTED PUBLIC VERSION
                                                                    Appendix IV


                                     Criteria

Federal Information Security Management Act of 2002, Title III, Pub. L. No.
107-347. Requires federal agencies to develop, document, and implement an
agency-wide program providing security for the information and information
systems supporting the operations and assets of the agency, including those
provided or managed by another agency, contractor, or other source.

Office of Management and Budget Memorandum A-123, Management’s
Responsibility for Internal Controls. Provides guidance to agencies for
ensuring information systems are protected throughout the lifecycle process.

Office of Management and Budget Memorandum A-130, Management of
Federal Information Resources. Provides guidance to agencies for managing
federal information resources.

Office of Management and Budget Memorandum M-03-22, OMB Guidance
for Implementing the Privacy Provisions of the E-Government Act of 2002.
Establishes the requirement for agencies to conduct PIAs for information
systems.

NIST Special Publication 800-16, Information Technology Security Training
Requirements: A Role and Performance Based Model. Provides guidance for
security training.

NIST Special Publication 800-50, Building an Information Technology
Security Awareness and Training Program. Provides guidance for security
training and implementation.

NIST Special Publication 800-53, Revision 3, Recommended Security
Controls for Federal Information Systems and Organizations. Provides
guidance related to the steps in the RMF addressing security control selection.

NIST Special Publication 800-53A, Revision 1, Guide for Assessing the
Security Controls in Federal Information Systems and Organizations:
Building Effective Security Assessment Plans (companion guideline to NIST
SP 800-53). Covers the security control assessment and continuous monitoring
steps in the RMF and provides guidance on the security assessment process.

NIST Special Publication 800-37, Revision 1, Guide for Applying the Risk
Management Framework to Federal Information Systems: A Security Life


Review of the SEC’s Systems C&A Process                             March 27, 2013
Report No. 515
                                      Page 39

                          REDACTED PUBLIC VERSION
                                                                Appendix IV


Cycle Approach. Provides guidance for applying the RMF to federal information
systems.

NIST Special Publication 800-60, Volume 1, Rev. 1, Guide for Mapping
Types of Information and Information Systems to Security Categories.
Addresses the FISMA direction to develop guidelines recommending agencies
conduct privacy impact assessments to determine if the information systems
contain PII.




Review of the SEC’s Systems C&A Process                         March 27, 2013
Report No. 515
                                      Page 40

                          REDACTED PUBLIC VERSION
                                                                       Appendix V


                     List of Recommendations

Recommendation 1:

The Office of Information Technology should implement a centralized repository
for managing certification and accreditation activities including the security test
and evaluation process (i.e., evidence, artifacts, assessor date, and sites
assessed).

Recommendation 2:

The Office of Information Technology should determine if the Commission has
certification and accreditation files that are stored on its contractor’s off-site
servers and, in the future, require contractor to maintain all Commission files on
servers the Commission owns and manages.

Recommendation 3:

The Office of Information Technology should develop and provide security status
reports to the designated approving authority as specified in their authorization to
operate memorandums.

Recommendation 4:

The Office of Information Technology (OIT) should review the security
documentation in the certification and accreditation packages, including system
categorization documents, risk assessment documents, and system security
plans to ensure that references to personally identifiable information, privacy
impact assessments, and privacy analysis worksheets, are consistently providing
the same disposition regarding Personally Identifiable Information.

Recommendation 5:

The Office of Information Technology should provide a documented brief that
management officials (system owners) can use as a resource reference.

Recommendation 6:

The Office of Information Technology should identify the portion of the hybrid
controls that are inherited from the general support system and the portion that
should be evaluated as a system-specific control.


Review of the SEC’s Systems C&A Process                                March 27, 2013
Report No. 515
                                      Page 41

                          REDACTED PUBLIC VERSION
                                                                      Appendix V


Recommendation 7:

The Office of Information Technology should review and update the
                          security plan and include a list of common controls that
was inherited from the general support system in accordance with the approved
system security plan template.




Review of the SEC’s Systems C&A Process                              March 27, 2013
Report No. 515
                                      Page 42

                          REDACTED PUBLIC VERSION
                                                                                               Appendix VI


                                 Management Comments




                                                MEMORANDUM
                                                     March 25, 2013



 To:                 JB-c;queline \Nilson, !'sslstarp:)nspector General for Audits, Office of Inspector General
                      1/m~c~ YJit -t?:JY"'
 From: 	              Thomas A. Bayer', Chief Information Officer, Office ot Information Technology

 Subject: 	           Management Response, Review of the SEC's Systems Certification and Accreditation
                      Process, Report No. 515


 Thank you for the opportunity to comment on the recommendations in the report annotated above, as
 we work together for the integrity and efficiency of the Commission. We appreciate the Office of
 Inspector General's insights and are providing the official response from the Office of Information
 Technology {O!T).


 Recommendation 1: "The Office of Information Technology should implement a centralizecJ repository
 for managing certification and accreditation activities including the security test and evaluation process
 (i.e. evidence, artifacts, assessor date, and sites assessed)."

 Management Response: OIT concurs with the recommendation. O!T Security is working toward
 implementing a centralized repository that would maintain the de!iverables that support the
 authorization to operate.



 Recornmendation 2: "The Office of Information Technology should determine if the Commission has
 certification and accreditation files that are stored on its contractor's off-site servers and, in the future,
 require contractor to rnaintain all Commission files on servers the Commission owns and manages."

 Management Response: OIT concurs with the recommendation. OIT Security is aware of Commission
 files on contractors' servers and is working on rectifying the situation.



 Recommendation 3: "The Office of Information Technology should develop and provide security status
 reports to the designated approving authority as specified In their authorization to operate
 men·lorandums.»

 Management Response: Concur with the recommendation. OtT will revise the language in the
 authorization to operate memorandums and report accordingly.

 l   Pamela   c. Dyson, Deputy Chief Information Officer,   Office of Information Technology




Review of the SEC's Systems C&A Process                                                        March 27, 2013
Report No. 515
                                                      Page 43 


                                     REDACTED PUBLIC VERSION 

                                                                                         Appendix VI




 Recommendation 4: "OIT should review the security documentation in the certification and
 accreditation packages, including system categorization documents, risk assessment documents, and
 system security plans to ensure that references to personally identifiable information, privacy impact
 assessments, and privacy analysis worksheets, are consistently providing the same disposition regarding
 PH."

 Management Rt!sponse: OIT concurs with the recommendation. None of the systems reviewed
experienced adverse security events and were secured at the appropriate Federal Information
Processing Standard {FlPS) Publication 199 impact level. OIT is confident the processes are in place, as it
identifies systems that contain information in identifiable form. orr has documented privacy analysis
worksheets on systems to determine if they contain information in identifiable form, to determine
whether a privacy impact assessment is required. OIT documents the appropriate information tvpes in
security categorization documentation that is summarized in risk assessments and system security plans.
The inconsistencies identified by the auditors were a result of in-progress assessments and a clerical
error. OIT will review our documentation to correct any remaining inconsistencies.



Recommendation 5: "The Office of Information Technology should provide a documented brief that
management officials (system owners) can use as a resource reference."

Management Response: OIT concurs with the recommendation. OIT orally briefs system owners or their
representatives at the beginning of every authorization to operate meeting and explains the security
requirements and their responsibilities in making collaborative, informed risk-based decisions. NIT did
not observe an authorization to operate meeting. OIT can provide a documented briefing for these
management officials, so they can have a resource to refer to.



Recommendation 6: "The Office of Information Technology should identify the portion of the hybrid
controls that are inherited from the general support system and the portion that should be evaluated as
a system-specific control."

Management Response: OtT concurs with the recommendation. OIT identifies controls inherited from
the general support system in the ST&E Results Report, however, we do agree that those controls can be
more clearly documented.




Review of the SEC's Systems C&A Process                                                  March 27, 2013
Report No. 515
                                               Page 44 


                               REDACTED PUBLIC VERSION 

                                                                                          Appendix VI




                          Office of Information Technology should review and update
                         security plan and include a list of common controls that was i
                           accordance with the approved system security p!an template."

 Management Response: O!T concurs with the recommendation. OIT will be updating the system security
plan template for internalfy hosted applications to include a list of common controls inherited from the
general support system.




Review of the SEC's Systems C&A Process                                                   March 27, 2013
Report No. 515
                                              Page 45

                              REDACTED PUBLIC VERSION
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to request
an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
